V

*

FILED
DEC 0 h 2020

t=y

C3

i

NO

IN THE
SUPREME COURT OF THE UNITED STATES

Lucille Jackson Williams- Petitioner

PRO SE

VS.
JOHN Edward Williams JR.-RESPONDENT

(NAME OF THE COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIOARI

ILLINOIS SUPREME COURT

Lucille Jackson Williams

Pro Se

10171 North East Glendale Avenue
Peoria, Illinois 61603

309-673-5408

QUESTIONS PRESENTED

1. Whether the court erred in denying Lucille Jackson Williams claim against the estate in the
sum of $80,000.00?
2. Whether Lucille Jackson Williams had ineffective assistance of counsel related to her
motion to file a claim and supportive documentations?
3. Whether Lucille Jackson Williams had ineffective assistance of counsel related to all
probate matters against the estate?

TABLE OF CONTENTS
OPINIONS BELOW

PAGE

1

JURISDICTION

PAGE

2

CONSTITUTIONAL AND STATUORY PROVISIONS INVOLVED

PAGE

3

STATEMENT OF THE CASE

PAGE

4

REASONS FOR THE GRANTING THE WRIT

PAGE

5

CONCLUSION

PAGE

6

WIRT OF CERTIOARI

PAGE

APPENDIX

PAGE

8

OPINOINS BELOW

On the term of the Appellate Court began and filed a petition for the rehearing on the 13th
Day of the month of March in the year our Lord two thousand twenty, within and for the
Third District of Illinois and it was denied on the 25th Day of March in the year of our Lord two
thousand twenty, within and for the Third District of Illinois.

1

JURISDICTION

JANUARY 11, 2020
Februa 24, 2020
March, 25 2020
APRIL 11, 2020
JUNE 2020
September 30, 2020
November 4, 2020

2

STATUTORY PROVISIONS INVOLVED

1. Statute 755IICS 5/18-1 Section 1- Filing of claims-mailing or delivery
of copies).
(a) A claim against the estate of the deceased or ward, whether based on contract, tort
statutory custodial claim or otherwise, may be found filed with the representative or the
court or both. When a claim is filed with the representative but not with the court but has no
duty to do so.
(b) Within 10 days after a claimant files his claim with the court, the claimant (1) shall cause a
copy of the claim to be mailed or delivered to each representative's attorney of record,
unless the representative or the attorney has in writing either consented to allowance of the
claim or waived mailing or delivery of a copy, and (2) shall file with the court proof of any
required mailing or delivery of copies. Failure to mail or deliver copies of the claim or file
proof therefore does not affect the validity of the claim filing under subsection 18-1 (a).
2. Statute 755ILCS 5/18-2 (755ILCS5/18-12) (from Ch. 110 1/2, par 18-12

Sec. 18-12. Limitation on payment of claims.

(a) Every claim against the estate of the decedent, except expenses of
administration and surviving spouses or child award, is banned as to all
of the decedent's estate if:

(2) Notice of disallowance is given to the claimant as provided in section
18-11 and the claimant does not file a claim with the court on or
3

Before the date stated in the notice: or
(3) The claimant or the claimant's address is not known to or
ascertainable by the representative and the court on or before the date stated
in the published notice as provided in Section 18-3
3

(b) Unless sooner barred under the subsection (a) of this section, all
claims which could have been barred under this section are, in any
event, barred 2 years after decedent's death, whether or not letters of
office are issued upon the state of the decedent.

3. Statute 755ILCS 5/18-3 Notice- Publication, (a) it is the duty of the
representative to publish once each week for 3 successive weeks, and to mail
or deliver to each creditor of the decedent whose name and post office address
are known to or are reasonably ascertainable by representative and whose
claim has not been allowed as provided in section 18-11, a notice stating the
death of the decedent, the name and address of the representative and of his
attorney of record, that claims may be filed on or before the date stated in the
notice, which date shall be no less than 6 months from the date of the first
publication or three months from the date of mailing or delivery, whichever is
later, and that any claim not filed on or before that date is barred.

(b) The publish notice under subsection (a) of this Section must be
published in a newspaper published in the county where the estate is being
administered and may be combined with any notice under section 6-10 or
subsection (b) of section 9-5. The representative must file proof of publication
with the clerk of the clerk of the court.

4

STATEMENT OF THE CASE

Appellant was married to the deceased, John Edward Williams Sr. On July
24,1978, but never divorced him on September 11,1979.

The deceased lived with the Appellant in her home at 10 17 N.E. Glendale Avenue in Peoria,
Illinois where she was his primary care giver when he became ill until his death on July 25,
2016. Appellant was with him when he passed away.

Appellant loaned the deceased, John Edward Williams Sr. $80,000.00 in two installments and
he signed a promissory note agreeing to repay her. The money was loaned to him in two
installment of $40,000.00.

Appellant retained Attorney Weer from Smith & Weer Law Firm in SEPTRMBER of 2016 to
represent her in the estate matters of the deceased John Edward Williams Sr.

During the course of the legal proceedings regarding the Will and Estate, Appellant learned
that her marriage was dissolved in 1979 without her knowledge or consent (case #79-D-03987).
Appellant vehemently denied signing the divorce petition. And thus, she relied upon her
attorney to represent her in the probate matters as well as challenge the validity of the
divorce. Appellant gathered and gave evidence to Attorney Edgar Weer including the
promissory note that was signed by the late John Edward Williams agreeing to repay
Appellant the $80,000.00. Attorney Weer told Appellant that he had filed the promissory
note against the Estate so that it could settled with the probate matters.
Counsel Weer instructed Appellant to write Appellant's name on a sheet of paper three times
in order to take a sample of the Appellant's handwriting to a handwriting expert to prove
that the signature on the divorce decree was not hers.
5

Appellant subsequently learned that her case had been given to Attorney Maurice Barry
without her consent or consultation. Appellant questioned the change in attorneys and was
told that Attorney fire in the courtroom. Moreover. Berry stated that he did not take a case
that he could not win.

Counsel Weer could not produce the documents that would have proven the validity of the
signature that was affixed on the dissolution of the marriage.
Attorney Barry missed court dates without notifying appellant and did not prepare Appellant
for court. He did not hire a handwriting expert. He did not produce any documentation such
as death certificate, formal wrings. Obituary, published book proof of address, receipts,
signed statements nor the witness list, etc.. He did not file the promissory note.

Counsel Barry would present himself in court without enthusiasm. He refused to
communicate with Appellant and allowed the opposing Counsel Dentino to present
documents to the court that were oblivious to the Appellant. He did not cross examine
witnesses.

Case #79-D-03987 continued approximately over three years and Appellant lost. When
Appellant asked Attorney Barry to appeal, the he refused to do so and walked away.
Subsequently, he withdrew from the case without consulting with Appellant. Appellant filed
a motion to vacate Judge Kim L. Kelly's ruling without counsel.

Appellant retained Counsel Drew Quitschau and Counsel Quitschau assisted Appellant in the
continuation of filling a motion to vacate the ruling of case #79D-03987 by Judge Kim L. Kelly.

Judge Kelly denied case # 78-D-03987 stating that he would not give Appellant "a second bite
of the apple." Counsel Quitschau informed Appellant that her $80,000.00 claim against the
state had been not been filed that it was not barred from the case. He withdrew for personal
reasons and council her to get another attorney and have him or she to file the claim because
the opposing attorney had to reopen the file and that her new attorney should file the claim
for the $80,000.000.because it was not barred.

6

On May 18,2019, Appellant retained Counsel Gary Morris, a probate attorney, and he filed
the $80,000,00 promissory notes that should have been filed in probate court by Smith &
Weer Law Firm, which was not according to Counsel Drew Quitschau and Counsel Morris.
Counsel Morris failed to show up at the first hearing and did not notify Appellant. Counsel
Morris was late arriving at the next hearing. During the fourth hearing, Counsel Morris did
not bring Appellant's file and thus, he did not have documentation to prove the validity of
the deceased's signature on the promissory note. The deceased son testified under oath that
the signature on the promissory note was forged, because the deceased never signed his
name without him using his middle initial. Appellant's filed contained proof that the
deceased did in fact sign his name without his middle initial. Appellant had ample proof to
discredit the son of the deceased, Mr. John Edward Williams, but Counsel Morris was ill
prepared by not bring the Appellant's file to court.

Appellant lost the case and ask Counsel Morris to withdraw due to the lack of competence.

After the withdrawal Judge Gilles told Appellant that if she did not have counsel within
twenty-one days, he would dismiss Appellant's case. He told Appellant that she would be
arrested if she failed to show up for next court date, case management, April 11,2019.
Appellant filed a motion to continue or extend the time which was denied by Judge Gilles.
Appellant contacted 35 attorneys to no avail. Appellant was not able to secure files from
past attorneys unless she paid them in full. Appellant exhausted her savings in legal fees.

Appellant represented herself hereafter. She attended the case management conference
unaware of the proceedings on April 11, 2019. Appellant gave estate items that they
requested including a 1956 Buick that wasn't listed she purchased. Appellant had the original
bill of sale, but the court had a citation ordering Appellant to surrender it to the estate.
Appellant was order to pay the estate $15,190 within 14 days.
The Estate of Mr. Williams did not send a notice by mail to Appellant regarding probate even
though her name and post office address was reasonably ascertained.
7

The Estate of Mr... Williams published notice but did not provide the required information
stating that claims may be filed on or before a date stated in the notice, nor did it provide
that any claim not filed on or before that date is barred.

Appellant filed an appeal.

8

REASONS FOR GRANTING WRIT

Appellant appealed the claim against the deceased's Estate on January 11, 2019. When
interlocutory judgments were ordered from the Appellate Court it continued to discuss the
same issues during the many court hearings. Appellant wants the court to reconsider the
Illinois Supreme Court's decision because the Appellate Court incorrectly held that the
Appellant did not have standing to bring this claim because it was not filed timely. However,
the court ordered many continuances and the Appellant was without the knowledge of the
final decision made by the trial court. The court's review is imperative because this case
presents issues that were denied. The Probate Court denied the Appellant due process when
the Appellant's promissory note was stated to have been forged by the deceased's son, John
Edward Williams Jr. and the Probate Court denied Appellant's claim against the Estate.
Therefore, the Appellant pray that United States Supreme Court review the case.

9

\

CONCLUSION

The petition for a writ of certiorari should be granted

Respectfully submitted,

LUCILLE JACKSON WILLIAMS

DATE: 12/4/2020

10

